      Department of Homeland Security



          Fire Station Construction Grants
       Funded by the American Recovery and
               Reinvestment Act of 2009




            American Recovery and Reinvestment Act of 2009



OIG-12-23                                                    January 2012

                                                         Office ofInspector Generat

                                                         U.S. Department of Homeland Security
                                                         Washington, DC 20528




                                                        Homeland
                                                        Security
                              JAN 3 - 1011

MEMORANDUM FOR:              Elizabeth Harman
                             Assistant Administrator, Grant Programs Directorate
                             Federal Emergency Management Agency

FROM:                        Anne L. Richards    dA//6.ff-ft,r
                             Assistant Inspect{Gen~ral~ '~udits

SUBJECT:                     Fire Station Construction Grants Funded by the American
                             Recovery and Reinvestment Act 0[2009

Attached for your information is our final letter report, Fire Station Construction Grants
Funded by the American Recovery and Reinvestment Act of2009. We incorporated formal
comments from the Director of the Office of Policy and Analysis in the final report.

The report contains two recommendations aimed at improving the fire station construction
grants program. The Office of Policy and Analysis concurred with both recommendations.
Within 90 days of the date of this memorandum, please provide our office with a written
response that includes a correction action plan and target completion dates for each
recommendation. Also, please include responsible parties and any other supporting
documentation necessary to inform us about the current status of the recommendations. Until
your response is received and evaluated, the recommendations will be considered open and
unresolved.

Consistent with our responsibility under the Inspector General Act, we are providing copies of
our report to appropriate congressional committees with oversight and appropriation
responsibility over the Department of Homeland Security. The report will be posted on our
website.

Should you have any questions, please call me, or your staff may contact John E. McCoy II,
Depury Assistant Inspector General for Audits, at (202) 254-4100.
Background
The American Recovery and Reinvestment Act of 2009 (Recovery Act) appropriated to the
Federal Emergency Management Agency (FEMA) $610 million, of which $210 million was for
competitive firefighter assistance grants for “modifying, upgrading, or constructing non-
Federal fire stations.” The Recovery Act also specifies that no grant shall exceed $15 million
and that FEMA may use up to 5% of the appropriation for management and administration.
The Department of Homeland Security (DHS) must obligate the grant funds by September 30,
2010.

Office of Management and Budget Memorandum M-09-15, Updated Implementing Guidance
for the American Recovery and Reinvestment Act of 2009, requires federal agencies to submit
plans for each program funded by the Recovery Act. The plan must include information on the
goals and objectives of the program; kinds and scope of activities to be performed; delivery
schedule; measures of program outputs, outcomes, and efficiency; and program monitoring
processes.

FEMA issued its spending plan for the fire station construction (FSC) grants on May 15, 2009.
The plan called for awarding the grants by December 31, 2009. The spending plan required
that the grant projects be subjected to reviews mandated by the National Environmental Policy
Act and the National Historic Preservation Act prior to release of grant funds. The plan also
identified how grant projects would be monitored programmatically and financially to ensure
that the project goals, objectives, performance requirements, timelines, milestone completion,
budgets, and other related program criteria are met.

Within FEMA’s Grant Programs Directorate (GPD), the Assistance to Firefighters Grant
(AFG) Program Office administers the FSC grants. The AFG Program Office used the overall
framework for grant administration employed for all other AFG grant programs and obtained
recommendations for funding priorities and criteria for awarding grants from the nine major
fire service organizations listed below:

                                Fire Service Organizations
 Congressional Fire Services    International Association of   International Association of
 Institute                      Arson Investigators            Fire Chiefs
 International Association of   International Society of       National Association of
 Firefighters                   Fire Service Instructors       State Fire Marshals
 National Fire Protection       National Volunteer Fire        North American Fire
 Association                    Council                        Training Directors

FEMA grant application guidance gave the highest priority to replacing unsafe or uninhabitable
structures and to expanding fire protection coverage to meet increased service demand. The
next priority was to fund projects modifying or expanding existing structures to provide
sleeping quarters and/or amenities for full-time occupancy. A slightly lower priority was to
fund modifying or expanding existing structures to accommodate support functions such as
communications. The lowest priority was to fund projects replacing or expanding habitable
structures that are cramped or inefficiently configured for operation.



                                                Page 2
Results of Review
FEMA is generally administering the Recovery Act FSC Grant Program according to its plan
and requirements. FEMA awarded 116 grants totaling $207 million after receiving and
evaluating approximately 6,000 grant applications. FEMA awarded 91.4% of the grants by
December 31, 2009, and awarded all grants by September 30, 2010. All grant projects awarded
were examined for compliance with applicable National Environmental Policy Act and
National Historic Preservation Act requirements. FEMA’s status report to DHS as of
September 30, 2011, shows outlays to grant recipients of approximately $67 million, or 32.6%
of total FSC grant projects. In addition, grantees reported funding about 1,315 jobs for the
quarter ended September 30, 2011.1 Appendix C lists all grant awards and obligations and a
breakout of the 1,315 jobs by grant.

We identified that FEMA needs to improve program monitoring. It should approve the
programmatic monitoring protocol and plan and implement a process to collect and analyze
grant program performance measures identified in the FSC Recovery Act plan. FEMA also
needs to ensure that recommended corrective actions from FSC grant financial desk reviews are
communicated to GPD leadership.

Program Monitoring

GPD issued Grants Policy and Procedure 09-12 to set policy for monitoring grants. To
implement this policy, both the AFG Program Office and the Grant Administration and
Assistance Division implemented specific protocols and plans to monitor program and financial
grant activities. As of October 25, 2011, GPD senior leadership has not approved the
programmatic monitoring protocol and plan. Also, GPD leadership has not approved the
Recovery Act performance measures for FSC program performance.

The fiscal year 2011 FEMA Financial Monitoring Plan states that the Regional Coordination
and Oversight (RCO) Branch will communicate plans for corrective actions resulting from
grantee financial activities’ desk reviews to senior management quarterly. However, the
quarterly report is still in development. Consequently, the RCO Branch distributes a monthly
“Issue Paper” to GPD leadership, but this paper does not include the Recovery Acts grants. For
4 of 15 desk reviews that we examined, the reviewer identified findings; however, corrective
actions for these findings were not included in the status update to GPD leadership.

Recommendations
We recommend that the Assistant Administrator, Grant Programs, ensure that:

         1.	 The AFG Program Office finalizes and implements its Programmatic Grants
             Monitoring Protocols and Plan for Monitoring of Fire Station Construction Grants
             and approves measures to monitor program performance.



1
  September 30, 2011, is the ending date for the most recent quarter for recipient reporting on jobs created or
retained.

                                                       Page 3
       2.	 The RCO Branch communicates corrective actions from desk reviews to senior
           GPD leadership.

Management Comments and OIG Analysis
We obtained written comments on a draft of the report from the Director of the Office of Policy
and Analysis. A copy of the comments is in appendix B. The Director concurred with both
recommendations, indicated that progress had been made, and said that additional corrective
actions would be described in response to the final report.

Although the comments agreed with the recommendations and indicated progress in
implementing the improvements, we have classified the recommendations as unresolved
pending receipt of a corrective action plan identifying the official responsible for
implementation and the date that necessary actions will be completed.




                                             Page 4
Appendix A
Purpose, Scope and Methodology
                  Our objective was to determine (1) whether FEMA was
                  administering the Recovery Act funds for the Fire Station
                  Construction Grants Program in accordance with program plans
                  and requirements, and (2) the status of Fire Station
                  Construction Grants Program funds and projects. To accomplish
                  our objective, we—

                      Reviewed applicable laws, policy, and FEMA guidance used to
                      award grants and monitor program performance;

                      Reviewed the process for awarding grants to determine
                      whether program guidance was sufficient and followed;

                      Reviewed FEMA procedures for project monitoring to
                      determine if grantees submitted required reports and FEMA
                      evaluated and acted as appropriate on the financial information;

                      Reviewed the contract for program management support,
                      interviewed contractor staff, and reviewed tasks performed to
                      obtain an understanding of work performed;

                      Interviewed FEMA GPD officials to obtain information on the
                      administration, management, and oversight of the Program;

                      Evaluated a judgmental sample to confirm compliance with
                      (1) grant guidance and (2) financial and program requirements;
                      and

                      Surveyed grant recipients to identify reasons for delays in
                      starting projects and any other program issues.

                   We conducted this performance audit between February and June
                   2011 pursuant to the Inspector General Act of 1978, as amended,
                   and according to generally accepted government auditing
                   standards. Those standards require that we plan and perform the
                   audit to obtain sufficient, appropriate evidence to provide a
                   reasonable basis for our findings and conclusions based upon our
                   audit objectives. We obtained an understanding of the internal
                   controls that were significant within the context of our audit
                   objective. We evaluated the design and operating effectiveness of
                   these internal controls to determine the reliability of information
                   used in performing these significant controls. We believe that the
                   evidence obtained provides a reasonable basis for our findings and
                   conclusions based upon our audit objectives.

                   We appreciate the efforts by DHS management and staff to provide
                   the information and access necessary to accomplish this review.


                                       Page 5
Appendix B
Managements Comments to the Draft Letter Report


                                                                         U.S. Department of HOOlef:wd Security
                                                                                    Washington. DC 20472




                                                                                         FEMA
                                              OCT 25 2011



         MEMO~"iDUM        FOR:        Arme L. Riehards
                                       Assistant Inspector General for Audits
                                       Offiee of Ins~ General
                                       ~.~~
         FROM:                         David J. Kaufman            /
                                       Director
                                       Office of Policy and Program Analysis

         SUBJECT:                      Comments to OIG/GAO Draft Letter Report, Fire Station Construction
                                       Grants Funded by the American Recovery and Reinvestment Act of
                                       2009 -For Official Use Only DIG Project No. II-060-DHS-AUD


         Thank you for the opportunity to comment on the draft report. The findings in the report will be used
         to strengthen the effectiveness and efficiency of how we execute and measure our programs. We
         recognize the need to continue to improve the grants management process, including addressing the
         recommendations raised in this report. Our responses to the two recommendations are as follows:

         OIG Recommendation #1. The OIG recommends that Assistant Administrator, Grant Programs,
         ensure that the AFG Program Office finalizes and implements its Programmatic Grants
         Monitoring Protocols and Plan for Monitoring of Fire Station Construction Grants and approves
         measures to monitor program performance.

         FEMA Response. FEMA concurs with this recommendation. Significant progress has been made
         in monitoring, however, further development and implementation of a mopjtoring plan and protocols
         for the station construction grants are in deveiopmenL We will provide a report on additional
         progress with regard to monitoring in our response to the OIG's final report on the audit. In the
         meantime, we request that the status of the recommendation be resolved and open pending GPO's
         report on additional progress

         OIG Recommendation #2. The OIG recommends that Assistant Administrator, Grant Programs,
         ensure that the Regional Coordination and Oversight Branch communicate corrective actions from
         desk reviews to senior GPO leadership.

        FEMA Response. FEMA concurs with this recommendation. The Regional Coordination and
        Oversight Branch havc implemented several communication methods to keep senior GPD leadership
        informed of issues in the monitoring of grantecs. These communication methods include regional
        assessments involving the Director of Grant Operations, monthly conference calls bctween
        headquaIiers and regions, and the exchange of monthly reports on funding between headquarters aI1d
        regions to keep all staff advised of the status of funding. We will provide a report on additional
        corrective actions planned and taken in our response to the OIG's tInal report on the audit. In the
        meantime, we request that the recommendation be resolved and open pending the report on
        additional progress.

        We thank you, again, for the opportunity to provide our comments to your recollU11endations
        contained in your draft report. Should you have fuliher questions regarding our response, please do
        not hesitate to call FEMA's Chief Audit Liaison, Brad Shefka, at 202-646-1308.




                                                    Page 6 

Appendix C
Grant Awards, Obligations, and Jobs


                          Grantee                       State   Obligation       Outlays     Jobs
EUFAULA FIRE DEPARTMENT                                  AL         $ 360,978            0        0
MADISON FIRE/RESCUE                                      AL         1,415,043      424,512     2.33
MOBILE FIRE-RESCUE DEPARTMENT                            AL         1,952,763            0        *
BIRMINGHAM FIRE & RESCUE SERVICE                         AL         1,832,907        7,900        0
COUNTY 17 FIRE & RESCUE                                  AL           276,130            0        0
LITTLE ROCK FIRE DEPARTMENT                              AR         2,017,800      135,602      0.7
BRYANT FIRE DEPARTMENT1                                  AR             34,000           0        *
HORSESHOE LAKE VOLUNTEER FIRE DEPARTMENT                 AR           765,813      227,000       43
CITY OF MESA FIRE DEPARTMENT                             AZ         4,040,000            0     6.72
GILBERT FIRE DEPARTMENT                                  AZ         2,977,838      297,783        0
TOWN OF BUCKEYE FIRE DEPARTMENT                          AZ         3,522,456      791,198       13
CITY OF MORRO BAY                                        CA         1,602,940      160,294     2.25
SANTA MARIA CITY FIRE DEPARTMENT                         CA         4,368,907            0        0
CITY OF ONTARIO FIRE DEPARTMENT                          CA         1,354,000       71,143     3.45
MARIPOSA COUNTY FIRE DEPARTMENT                          CA         2,184,586      269,666        0
SOUTH SAN FRANCISCO FIRE DEPARTMENT                      CA         2,050,000      260,272        5
COUNTY OF LOS ANGELES FIRE DEPARTMENT                    CA         3,623,900            0    40.63
MARINA FIRE DEPARTMENT                                   CA           497,878      497,878       12
ROUGH AND READY FIRE DEPARTMENT                          CA         1,126,832      540,531       75
FAIRMOUNT FIRE PROTECTION DISTRICT                       CO           132,787       13,278        0
CITY OF PUEBLO FIRE DEPARTMENT                           CO         2,734,445            0    12.79
TOWN OF EAST HARTFORD FIRE DEPARTMENT                    CT         3,660,019    3,477,015    26.85
LIBERTY FIRE DISTRICT, INC.                              FL           856,260       32,094        3
COLUMBIA COUNTY FIRE DEPARTMENT²                         FL                  0           0        *
TAMPA FIRE RESCUE                                        FL         1,624,880      487,464     2.38
EDGEWATER FIRE RESCUE                                    FL         1,141,357      342,407        *
CITY OF QUINCY FIRE DEPARTMENT                           FL         1,200,987       87,911        0
SUMTER COUNTY FIRE RESCUE                                FL         2,131,638    1,385,565    13.69
BUTTS COUNTY FIRE DEPARTMENT                            GA            531,600       53,578        9
SMYRNA FIRE DEPARTMENT                                  GA          1,434,967       71,847        0
LOUISVILLE VOLUNTEER FIRE DEPARTMENT                    GA            858,673      787,108        2
SCREVEN COUNTY FIRE DEPARTMENT                          GA            135,000            0        0
HAWAII COUNTY FIRE DEPARTMENT                            HI         4,113,686      411,368       14
BRITT FIRE DEPARTMENT                                    IA           543,640      543,640       60
PAYETTE CITY & RURAL FIRE DEPARTMENTS                    ID         1,979,891    1,292,828     7.86
NORTHERN LAKES FIRE PROTECTION DISTRICT                  ID         1,054,120      132,333        1
SOUTH BOUNDARY FIRE PROTECTION DISTRICT                  ID           356,870      356,870       **
ATKINSON FIRE PROTECTION DISTRICT                        IL         1,359,000    1,291,050       27
COLONA FIRE DEPARTMENT                                   IL           562,387      562,387        0
MUNICIPAL FIRE DEPARTMENT                                IL         1,160,000      129,357        1
VILLAGE OF WESTERN SPRINGS                               IL         1,100,000    1,100,000       65
CHICAGO FIRE DEPARTMENT                                  IL         4,800,000            0    16.25
VALPARAISO FIRE DEPARTMENT                               IN           461,368      461,368       **
NEW WHITELAND FIRE DEPARTMENT                            IN           510,248      510,248       32
POSEY TOWNSHIP VOLUNTEER FIRE DEPARTMENT                 IN         1,265,777      343,766        0
VOLUNTEER FIRE & RESCUE OF HARRISON TOWNSHIP             IN         1,149,490       10,000        0
NEWTON FIRE/EMS DEPARTMENT                               KS         2,962,365    1,925,537        0
LOUISVILLE FIRE AND RESCUE                              KY          3,319,765      900,000      3.5
MT. STERLING FIRE DEPARTMENT                            KY          1,100,000       20,000       17
GROSSE TETE VOLUNTEER FIRE DEPARTMENT                    LA         2,763,080      809,779     0.26
PAINCOURTVILLE VOLUNTEER FIRE DEPARTMENT                 LA           547,400            0       10
CHELSEA FIRE DEPARTMENT                                 MA          1,515,020            0        0
WARE FIRE DEPARTMENT                                    MA          5,000,000      400,000        5
BRUNSWICK VOLUNTEER FIRE COMPANY, INC.                  MD          2,431,161    1,580,254       35
ANNE ARUNDEL, COUNTY OF                                 MD          1,866,100      186,610        0
GOODWINS MILLS FIRE & RESCUE                            ME            879,753      879,753        0
WASHINGTON TOWNSHIP FIRE DEPARTMENT                      MI         1,510,016    1,434,504        0
GRAND TRAVERSE METRO FIRE DEPARTMENT                     MI         2,813,034    2,589,021        6
NORTH OAKLAND COUNTY FIRE AUTHORITY                      MI           759,704      713,717     0.72
CITY OF HIGHLAND PARK FIRE DEPARTMENT                    MI         2,681,167            0        *
DUTTON FD / GAINES CHARTER TOWNSHIP                      MI           866,561      823,232        0
FULTON FIRE DEPARTMENT                                  MO          1,265,487    1,048,359        3
MAPAVILLE FIRE PROTECTION DISTRICT                      MO            925,363      880,750       50
WINFIELD-FOLEY FIRE PROTECTION DISTRICT                 MO          1,206,550      143,565       10




                                               Page 7
Appendix C
Grant Awards, Obligations, and Jobs



                                Grantee                                    State        Obligation            Outlays        Jobs
UNIVERSITY CITY FIRE DEPARTMENT                                             MO               2,612,197            10,045              0
KANSAS CITY, MISSOURI FIRE DEPARTMENT                                       MO               2,030,000         1,319,500          12.73
BIGGERSVILLE VOLUNTEER FIRE DEPARTMENT                                       MS                469,173           445,711           1.53
KALISPELL FIRE DEPARTMENT                                                   MT               1,348,039         1,140,674             43
VALLEY HILL FIRE & RESCUE                                                   NC                 640,000           456,679           6.55
PITTSBORO VOLUNTEER FIRE & RESCUE DEPARTMENT                                NC                 607,500           448,774             68
TOWN OF SUNSET BEACH                                                        NC               1,494,103           290,553             86
BETHLEHEM COMMUNITY VOLUNTEER FIRE DEPARTMENT                               NC               2,008,515            57,785           3.12
NAVASSA VOLUNTEER FIRE DEPARTMENT                                           NC               1,607,950         1,599,988              0
WINSTON-SALEM FIRE DEPARTMENT                                               NC               2,008,541                  0             0
LONDONDERRY FIRE/RESCUE                                                     NH               1,655,671         1,655,671              2
PATERSON FIRE DEPARTMENT                                                     NJ              4,500,000                  0             0
BAYONNE FIRE DEPARTMENT                                                      NJ              3,567,491                  0             0
SANDOVAL COUNTY FIRE DEPARTMENT                                             NM               2,700,204           791,404             27
SIERRA FIRE PROTECTION DISTRICT                                             NV               2,089,130           208,913           3.77
LYON COUNTY TREASURER                                                       NV               2,091,524         2,091,524             **
OTTER LAKE FIRE COMPANY, INC.                                               NY               1,469,862           342,070            5.3
WAYNE TOWNSHIP FIRE AND RESCUE                                              OH                 820,000           820,000             **
OLMSTED TOWNSHIP FIRE DEPARTMENT                                            OH               1,954,079         1,172,444             31
BRISTOL TOWNSHIP VOLUNTEER FIRE DEPT                                        OH               2,235,191         1,927,826             25
JACKSON TOWNSHIP FIRE DEPARTMENT                                            OH               1,412,920                  0             0
TOLEDO FIRE & RESCUE DEPARTMENT                                             OH               2,995,603           216,000              0
AUSTINTOWN FIRE DEPARTMENT                                                  OH                 333,000           316,050             52
GATES RURAL FIRE PROTECTION DISTRICT                                        OR               1,582,821         1,570,993              0
KLAMATH COUNTY FIRE DISTRICT NO. 1                                          OR               4,353,954                  0             0
CITY OF NEWBERG                                                             OR                 809,225            61,555              7
LAFAYETTE FIRE COMPANY OF E. LAPETER TOWNSHIP                                PA              2,285,436           985,805             24
SIX MILE RUN AREA VOL. FIRE COMPANY                                          PA              2,001,710           168,317              *
MALVERN FIRE COMPANY                                                         PA              1,076,845           150,000              8
EAST PROVIDENCE FIRE DEPARTMENT                                              RI              6,406,715            16,207           0.25
INDIAN LAND FIRE DEPARTMENT                                                  SC              1,669,808         1,586,317           6.98
SOUTH GREENVILLE FIRE DEPARTMENT                                             SC                842,008            98,836           2.37
HEATH SPRINGS VOLUNTEER FIRE DEPARTMENT                                      SC                976,000           976,000           1.33
ST. PAUL'S FIRE DISTRICT                                                     SC              1,686,246           602,946              3
OLAR FIRE DEPARTMENT                                                         SC                209,000           209,000              0
HAYWARD FIRE AND EMERGENCY SERVICES                                          SD                196,000           196,000             21
NIOTA RURAL VOLUNTEER FIRE DEPT                                             TN                 336,680            88,202             34
CITY OF MUNFORD FIRE DEPARTMENT                                             TN               1,817,000         1,089,836          14.69
PIGEON FORGE FIRE DEPARTMENT                                                TN               2,045,072                  0         25.14
LIMESTONE COVE FIRE DEPARTMENT                                              TN                 110,872            71,761              2
ALLEN FIRE DEPARTMENT                                                       TX               1,803,126         1,433,470            1.9
BRIAROAKS VOLUNTEER FIRE DEPT, INC.                                         TX                 301,800            90,540           1.58
EL PASO FIRE DEPARTMENT                                                     TX               1,256,115                  0           2.1
CITY OF SAN ANTONIO FIRE DEPARTMENT                                         TX               7,316,260                  0         28.39
CEDAR CITY/IRON COUNTY                                                      UT                 974,205           974,205             **
NEWPORT NEWS FIRE DEPARTMENT                                                VA               2,597,425         2,597,425              0
RICHMOND FIRE AND EMERGENCY SERVICES                                        VA               3,520,109           352,010           0.57
FLUVANNA COUNTY VFD - FORK UNION COMPANY                                    VA               1,415,540           141,554              0
CITY OF SEDRO-WOOLLEY FIRE DEPARTMENT                                       WA               1,450,660         1,450,660             21
GIG HARBOR FIRE & MEDIC ONE                                                 WA               2,182,336           147,402           1.25
SNOQUALMIE PASS FIRE AND RESCUE                                             WA               4,007,374         4,007,374             **
NEENAH MENASHA FIRE RESCUE                                                   WI              1,208,522         1,158,371            103
   Total                                                                                  $206,365,944       $67,438,739       1314.93
*No report filed.
**Project complete, no report required.
1
  Bryant Fire Department initially received a grant of $100,000. FEMA canceled the grant and reduced the obligation to $34,000 to cover
the costs claimed by Bryant Fire Department before the grant was canceled.
2
  Columbia County Fire Department initially received a grant of $684,000. FEMA cancelled the grant and deobligated the funds.




                                                                  Page 8
Appendix D
Major Contributors to this Report

                    Roger LaRouche, Director
                    Pamela Weatherly, Lead Auditor
                    Jason Kim, Auditor
                    Shelley Howes, Independent Reference Reviewer




                                      Page 9
Appendix E
Report Distribution
                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff
                      Deputy Chief of Staff
                      General Counsel
                      Executive Secretariat
                      Director, GAO/OIG Liaison Office
                      Assistant Secretary for Office of Policy
                      Assistant Secretary for Office of Public Affairs
                      Assistant Secretary for Office of Legislative Affairs

                      Federal Emergency Management Agency

                      Administrator
                      Assistant Administrator Grants Program Directorate
                      Federal Emergency Management Agency Audit Liaison

                      Office of Management and Budget

                      Chief, Homeland Security Branch
                      DHS OIG Budget Examiner

                      Congress

                      Congressional Oversight and Appropriations Committees, as
                      appropriate




                                         Page 10
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General
(OIG) at (202)254-4100, fax your request to (202)254-4305, or e-mail your request to
our OIG Office of Public Affairs at DHS-OIG.OfficePublicAffairs@dhs.gov. For
additional information, visit our OIG website at www.oig.dhs.gov or follow us on Twitter
@dhsoig.

OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal
or noncriminal misconduct relative to Department of Homeland Security programs and
operations:

• Call our Hotline at 1-800-323-8603

• Fax the complaint directly to us at (202)254-4292

• E-mail us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
        DHS Office of Inspector General/MAIL STOP 2600,
        Attention: Office of Investigation - Hotline,
        245 Murray Drive SW, Building 410
        Washington, DC 20528

The OIG seeks to protect the identity of each writer and caller.
